                             Office of the Inspector General

September 19, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Status of Social Security Administration’s Implementation of Selected
Recommendations Reported in the Fiscal Year 1998 Management Letter – Part 2
(A-15-99-52020)


The attached final report presents the results of our review. This is a follow-up audit to
the PricewaterhouseCoopers LLP, “FY 1998 Management Letter – Part 2,
Recommendations to Improve Management Controls and Operations Resulting from
Our Fiscal Year 1998 Financial Statement Audit,”dated November 20, 1998. The
objective of this follow-up audit was to determine the status of selected findings and
recommendations in the subject management letter.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                 James G. Huse, Jr.


Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     STATUS OF SOCIAL SECURITY
 ADMINISTRATION’S IMPLEMENTATION
  OF SELECTED RECOMMENDATIONS
  REPORTED IN THE FISCAL YEAR 1998
    MANAGEMENT LETTER – PART 2

    September 2000   A-15-99-52020




AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                             Office of the Inspector General


William A. Halter
Deputy Commissioner
 of Social Security

Inspector General

Status of Social Security Administration’s Implementation of Selected
Recommendations Reported in the Fiscal Year 1998 Management Letter – Part 2
(A-15-99-52020)


OBJECTIVE

This is a follow-up audit to the PricewaterhouseCoopers LLP, “FY 1998 Management
Letter – Part 2, Recommendations to Improve Management Controls and Operations
Resulting from Our Fiscal Year 1998 Financial Statement Audit,”dated
November 20, 1998. The objective of this follow-up audit was to determine the status of
selected findings and recommendations in the subject management letter.

BACKGROUND

In Fiscal Year (FY) 1998, PricewaterhouseCoopers (PwC), an independent Certified
Public Accounting firm, performed an audit of the consolidated financial statements of
the Social Security Administration (SSA) as of and for the year ending
September 30, 1998. PwC issued its Report of Independent Accountants, dated
November 20, 1998, which is included in SSA’s Accountability Report for FY 1998. The
Office of the Inspector General (OIG) monitored the work of PwC.

The primary objective of the financial statement audit was to:

   •	 Give an opinion on SSA’s financial statements as of and for the year ending
      September 30, 1998, including the related notes.
   •	 Give an opinion as to whether SSA management’s assertion about the
      effectiveness of its internal control was fairly stated.
   •	 Report on SSA’s compliance with selected provisions of laws and regulations
      that could materially affect the principal financial statements.

The audit of SSA’s financial statement also identified conditions that did not have a
material impact on the financial statements. In order to report these conditions, PwC
issued Management Letters – Part 1 and Part 2 to SSA addressing areas in need of
management attention. Management Letter, Part 1, contains details of a sensitive
Page 2 – William A. Halter


nature to SSA and is, therefore, restricted in its use. It is considered a limited
distribution report. Management Letter, Part 2, contains issues of a general nature and
is not limited in its distribution, but is intended as information for management and the
Inspector General of SSA. In accordance with applicable standards, the Management
Letter issues were not considered by PwC to be material weaknesses or reportable
conditions. Nonetheless, the letters contain both findings and recommendations
requiring management action.

SCOPE AND METHODOLOGY

To accomplish our objective, we:

   •	 Validated SSA’s reported status of management action on selected findings and
      recommendations.
   • Determined whether corrective action has addressed the recommendations.

We performed follow-up audit work on 27 of 48 findings published in PwC’s FY 1998
Management Letter – Part 2. We selected the most significant findings in the report for
this audit. Twenty-three of the findings remained open from the FY 1997 Management
Letter. The other four findings were new in the FY 1998 Management Letter. Because
the original audit was SSA wide, the findings and recommendations covered various
offices within SSA. For the specific findings that we reviewed see Appendix A.

We conducted our review from September 1999 through January 2000 at SSA
Headquarters in Baltimore, Maryland. Our audit was conducted in accordance with
generally accepted government auditing standards.

RESULTS OF REVIEW

Of the 27 findings we selected, SSA stated that they completed work on 7 and
disagreed with and closed 2 recommendations with no action taken. SSA agreed with,
but had not fully completed corrective actions on 17 recommendations and agreed in
principal with 1 recommendation, but planned to take no corrective action.

We evaluated SSA’s progress and corrective actions by interviewing the responsible
SSA contact officials, reviewing PwC’s work conducted during the FY 1999 financial
statement audit, and performing audit tests where necessary. In some cases, we relied
on the audit work performed by PwC. The results of our review are as follows:

                                                              Findings/
                    Audit Results                         Recommendations
     OIG agrees with SSA’s reported status                          20
     OIG disagrees with SSA’s reported status                       7
     Total                                                          27
Page 3 – William A. Halter


Summary of the seven findings/recommendations that the OIG disagrees with
SSA on the Status:

1.	 PwC recommended SSA ensure the title II Redesign include programmed edit
    routines to prevent erroneous data from being input into the system. SSA agreed
    and reported action on this recommendation as complete. The OIG disagrees. Our
    audit found that the new edits do not work for all types of claims. See finding III.1.B.
    on page 8 of Appendix A.

2.	 PwC recommended SSA perform a third party review of State agencies’processing
    of new Social Security number applications. SSA disagreed with this
    recommendation and plans no action. The OIG agrees with PwC and has initiated
    an audit in this area. The audit’s objectives are to determine whether:
    (1) participating hospitals accurately record information on Social Security number
    applications during the automated Enumeration At Birth process and (2) SSA’s
    internal controls adequately protect the integrity of this process. See finding III.4.D.
    on page 14 of Appendix A.

3.	 In 1997 and 1998 PwC compared the Master Beneficiary Record, Supplemental
    Security Record, and NUMIDENT and identified a number of corresponding records
    with significant differences in dates of birth. SSA closed this finding without taking
    further action because there are already edits in place that prevent input typos. The
    OIG disagrees that sufficient action was taken by SSA. Although edits are in place,
    SSA needs to investigate and correct instances of invalid data on individual records
    that may affect payment status. See finding III.6.D. on page 17 of Appendix A.

4.	 PwC recommended SSA continue to focus on strengthening security policies and
    procedures to ensure an adequately controlled Financial Accounting System
    (FACTS) environment promoting compliance with Joint Financial Management
    Improvement Program requirements. SSA agreed with the recommendation and
    had reportedly taken action to address the recommendation. The OIG disagrees.
    The security administrator had not yet received access to data sets needed to
    conduct reviews of possible access violations. Subsequently, SSA stated its FACTS
    security administrator gained the necessary accesses and is now conducting the
    security reviews. See finding IV.1.C. on pages 19 and 20 of Appendix A.

5.	 PwC recommended SSA develop and implement policies and procedures to ensure
    the de-obligation process is operating effectively. SSA agreed with this
    recommendation and reported that action was completed to close the
    recommendation. The OIG disagrees with the status. Our analysis of SSA’s new
    procedures found that while an improvement, the design of these new procedures
    does not provide sufficient control over the unliquidated obligations. Since our
    fieldwork ended, SSA advised us it devised additional new accounting procedures
    that we believe would effectively gain control over the open obligations if properly
    implemented. See finding IV.1.F. on page 21 of Appendix A.
Page 4 – William A. Halter


6.	 PwC recommended SSA develop a Memorandum of Understanding between SSA
    and the Department of the Treasury (Treasury) to formalize the process and
    procedures for transferring estimated amounts of employment taxes due to the trust
    funds. As an alternative, SSA published an Accounting Manual chapter
    documenting the employment taxes’transfer procedures. SSA shared the
    Accounting Manual chapter with Treasury and closed the recommendation. PwC did
    not believe the actions taken were sufficient. PwC pointed out that Treasury did not
    provide SSA with a formal concurrence with the SSA Accounting Manual chapter
    and did not believe the Accounting Manual provided sufficient detail to resolve
    possible differences of opinion between SSA and Treasury. The OIG agrees with
    PwC. A more detailed document would assign responsibilities and accountability for
    the tasks outlined in the tax transfer procedures. SSA informed us it met with PwC
    and plans to address the PwC’s specific concerns in the Accounting Manual. See
    finding V.D. on page 25 of Appendix A.

7.	 PwC recommended SSA complete annual inventories of capitalized and
    accountable property and any discrepancies noted during these inventories be
    reviewed by an appropriate level of SSA management and resolved timely. SSA
    completed an inventory of capitalized property in FY 1999 and closed this
    recommendation. The OIG disagrees with the status. SSA did perform an inventory
    during FY 1999, but we found that follow-up of issues found during the inventory was
    not adequate. See finding V.Q. on page 33 of Appendix A.

Our detailed audit results are located in Appendix A of this report.

CONCLUSIONS

Based on our work, we concluded the status of SSA’s action on the 27
findings/recommendations to be:


                        Audit Conclusions                              Findings
    Actions by SSA on Findings/Recommendations complete                    4
    Actions by SSA on Findings/Recommendations incomplete                 20
    Findings/Recommendations where SSA is not going to take
    action to correct                                                     3
    Total                                                                27


Seventeen of the twenty incomplete recommendations are repeat issues from the
FY 1997 audit. The three recommendations that SSA is not going to take action on also
remain open from FY 1997. In our opinion, recommendations from the Management
Letter are not closed in a timely manner. SSA’s continued attention is needed to bring
all of these issues to closure within the next audit cycle.
Page 5 – William A. Halter


AGENCY COMMENTS AND OIG RESPONSE

SSA generally agreed with our conclusions. SSA does not agree with finding III.4.D in
Appendix A that it should perform a third party review of State agencies’processing of
new Social Security number applications. SSA noted that it would determine if
additional actions are justified upon reviewing the results of the on-going OIG audit of
this area. We believe that SSA’s actions subsequent to this audit demonstrate its
commitment to bring closure to all of these issues expediently.




                                                James G. Huse, Jr.
                                      Appendices

Appendix A – Audit Results: FY 98 Management Letter Part 2

Appendix B – Table of Acronyms

Appendix C – Agency Comments

Appendix D – OIG Contacts and Staff Acknowledgments

                                   Appendix A


Audit Results – FY 98 Management Letter

Part 2





                    B-1

                                                         APPENDIX B


Table of Acronyms
ACID       Automated Continuing Investigation of Disability Program

AIMS       Administrative Instructions Manual System

AT         Attorney (a BIC)

BIC        Beneficiary Identification Code

BR         Divorced Husband - First Claimant (a BIC)

BY         Young Husband - First Claimant (a BIC)

CDR        Continuing Disability Review

CDRCF      Continuing Disability Review Control File

CICS       Customer Information Control System

CMM        Capability Maturity Model

CR         Claims Representative

DACUS      Death Alert, Control and Update System

DBCA       Division of Benefit Certification and Accounting

DCIA       Debt Collection Improvement Act of 1996

DCS        Deputy Commissioner for Systems

DDS        Disability Determination Service

DE         Deduct (a SIC code)

DI         Disability Insurance

DIET       Division of Integration and Environmental Testing

EAB        Enumeration at Birth

FACTS      Financial Accounting System

FO         Field Office

GLPSC      Great Lakes Program Service Center

ICBD       Integrated Client Data Base

IDA        Index of Dollar Accuracy

IRS        Internal Revenue Service

IT         Information Technology

JFMIP      Joint Financial Management Improvement Program

KPA        Key Process Areas

MADCAP     Manual Adjustment, Credit and Award Processes

MAP        Maturing Action Program

MATPSC     Mid-Atlantic Program Service Center

MBR        Master Beneficiary Record

MCS        Modernized Claims System

MS         Microsoft

NUMIDENT   A query using the SSN to obtain the name of the number's owner

NCC        National Computer Center

OASDI      Old Age, Survivors and Disability Insurance





                                B-1

OASI       Old Age and Survivors Insurance

OCACT      Office of the Chief Actuary

OFPSD      Office of Financial Policy and Systems Design

OIG        Office of the Inspector General

OIM        Office of Information Management

OQA        Office of Quality Assurance

OS         Office of Systems

OSDD       Office of Systems Design and Development

OSR        Office of Systems Requirements

OTSO       Office of Telecommunications and Systems Operations

PAS        Property Accountability System

PC-CDR     Personal Computer – Continuing Disability Review (i.e. work and earnings)

PEF        Problem Evaluation Form

PET        Platinum Process Engineering

POMS       Program Operations Manual System

PwC        PricewaterhouseCoopers LLP

QA         Quality Assurance

QTFL       Quarterly Trust Fund Letter

REACT      Returned Check Action Program

RSI        Retirement and Survivors Insurance

SAC        Special Action Code

SALT       Suspension and Life Termination Program

SAS        Statements on Auditing Standards

SET        Software Engineering Technology

SIC        Special Indication Code

SQL        Structured Query Language

SR         Service Representative

SRC        System Release Certification

SSA        Social Security Administration

SSI        Supplemental Security Income

SSR        Supplemental Security Record

TREBDET    Terminated Record Balancing Debt Transfer

TRO        Tax Refund Offset

TSO        Time Sharing Option

Treasury   Department of the Treasury

VTTS       Validation Transaction Tracking System

Y2K        Year 2000





                                B-2

                   Appendix C


Agency Comments

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG)

DRAFT REPORT, “STATUS OF SOCIAL SECURITY ADMINISTRATION’S

IMPLEMENTATION OF SELECTED RECOMMENDATIONS REPORTED IN THE

FISCAL YEAR 1998 MANAGEMENT LETTER – PART 2” (A-15-99-52020)



Thank you for the opportunity to review this OIG draft report,
which presents the results of OIG’s review of SSA implementation
of recommendations contained in prior PricewaterhouseCoopers
(PwC) reports. The following includes updated information
concerning the seven issues of disagreement highlighted in this
OIG report, followed by additional and updated information
relating to other issues appearing in Appendix A of the OIG
report that have not been highlighted in the OIG report as areas
of disagreement.

1.	   Title II Edit Routines for Preventing Input of Erroneous
      Data (Appendix A, item III.1.B. – page 8)

      Concerning the Modernized Claims System (MCS), the OIG is
      correct that further work is required to completely prevent
      erroneous generation of discrepant data within the small
      population of disabled widow and disabled adult child (DAC)
      claims. Edits to prevent this from continuing are included
      in the MCS software release scheduled for November 2000.
      The edits being put into place are front-end MCS edits.
      This is relevant because claims processed via the Manual
      Adjustment, Credit and Award Processes (MADCAP) system
      utilize the front-end of MCS; therefore, the November 2000
      release will effectively prevent generation of discrepant
      data via MADCAP, as well. (See additional technical
      comments on this issue in the “Other Matters” section
      below.)

2.	   Third Party Review of State Agencies’ Processing of Social
      Security Number (SSN) Applications (Appendix A, item
      III.4.D. – page 14)

      We continue to believe that the States are responsible for
      registering births and issuing birth certificates to
      individuals, and SSA has no basis to question the States’
      procedures and processes. The OIG draft report notes that
      OIG has initiated a separate audit in this area. We will
      await the results of this audit to determine whether
      additional actions are justified.


                                C-2

3.	   The Need to Investigate and Correct Instances of Invalid
      Data on Individual Records That May Affect Payment Status
      (Appendix A, item III.6.D. – page 17)

      As noted in Appendix A of the OIG draft report, systems
      enhancements already in place have addressed the problem of
      invalid data on individual records on a prospective basis.
      However, there remain instances of invalid data that
      occurred prior to the systems enhancements, and we agree
      that this needs to be analyzed. Additional analysis is
      needed to determine the cost effectiveness of a
      retrospective correction of discrepant data between the
      Supplemental Security Record (SSR) and the NUMIDENT. We do
      not now have sufficient data to confirm that a significant
      problem concerning invalid data remains. Subsequent
      contacts with our claimants relating to replacement of
      Social Security cards, subsequent claims, and
      redeterminations frequently generate a review between the
      SSR and NUMIDENT records for their accuracy and any
      necessary correction. Therefore, our analysis will include
      an examination of whether these regular processes are
      sufficient to address this issue. We will complete our
      analysis to determine the cost effectiveness of correction
      of discrepant SSR/NUMIDENT data by the end of December
      2000.

4.	   Financial Accounting System (FACTS) Security Controls
      (Appendix A, item IV.1.C. – page 19)

      We agree with OIG’s assessment that the TOP SECRET security
      administrator for FACTS had not received access to data
      sets to conduct reviews of possible access violations.
      Subsequently, the TOP SECRET security administrator has
      gained access, and on a monthly basis informs the FACTS
      security administrator of any suspected violations or lack
      thereof.

      In addition, we believe the “OIG Confirmation of Status” on
      page 20 of Appendix A should recognize that SSA
      deliberately revised its procedures on August 31, 1999 to
      recertify FACTS user access annually rather than every
      6 months.

      We consider this corrective action completed.




                                C-3

5.	   Policies and Procedures for Controls Over Unliquidated
      Obligations (Appendix A, item IV.1.F. – page 21)

      We agree that we needed to obtain better control over our
      unliquidated obligations and have developed additional
      procedures to strengthen the validation of open
      obligations. In May 2000, at a Financial Policy and
      Operations/Systems Conference, SSA regional and
      headquarters attendees discussed the significance of
      reviewing open obligations and the implications that
      inaccuracies have for current year funding levels. We have
      also developed a report that includes the age of
      unliquidated obligations and stratifies them by dollar
      value. On or about the first day of July, August, and
      September our financial staff will issue reminders to every
      SSA component budget office and instruct them to use on-
      line FACTS access to review outstanding obligations. These
      and other steps will be formally incorporated into SSA
      Accounting Manual procedures.

6.	   Process and Procedures for Transferring Estimated Amounts
      of Employment Taxes Due the Social Security Trust Funds
      (Appendix A, item V.D. – page 25)

      We agree with OIG’s assessment that work on this
      recommendation is incomplete. As an alternative to a
      memorandum of understanding recommended earlier by PwC, we
      prepared an SSA Accounting Manual chapter to document the
      estimation process for transferring employment taxes.
      However, the new procedures did not clearly assign
      accountability between SSA and the Department of Treasury.
      After receiving additional input from PwC subsequent to the
      prior PwC recommendation, we are revising the procedures
      and will obtain Treasury’s concurrence. We plan to issue
      the revised SSA Accounting Manual during July 2000.

7.	   Completion of Annual Inventories of Capitalized and
      Accountable Property (Appendix A, item V.Q. – page 33)

      We agree with the original PwC recommendation, and with the
      actions described below, consider this item as closed. We
      completed an inventory of capitalized property during
      fiscal year (FY) 1998. During its review, OIG located 5
      items, all reported by the same custodial officer, that
      were not correctly displayed on our inventory. Two of the
      misreported items were due to the fact that the custodial


                                C-4

     officer used computer listings from an internal SSA
     component data base rather than performing an actual
     physical inventory of equipment. This procedure is not
     consistent with our regular physical inventory procedures.
     Our managers in this area have had discussions with this
     custodial officer on the need to correctly adhere to these
     procedures. The other three items, which had not been
     removed from the inventory as appropriate, were the result
     of clerical oversight, and have since been corrected.

Other Matters

Item III.1.B. of Appendix A (page 9)

The report states, "SSA also stated that some beneficiaries have
a history on the MBR from a prior claim. When a new claim for
the individual is processed, all the data fields may not be
updated and cause the data to appear discrepant. In light of
these explanations, we conclude that other actions need to be
taken to ensure that discrepant data does not end up on the MBR
regardless of the cause of the discrepancy."

We believe there may be a misunderstanding of the information
communicated to the auditors during the review which leads them
to believe that other actions need to be taken to fix
unspecified problems. Onset data is a record of what was
alleged/recorded in each claim filed and while apparent
discrepancies in data might appear to exist, the two claims
represent separate and discrete events. The perceived
discrepancies only come about because comparisons are
essentially being made between non-comparable data. It may be
helpful for SSA systems staff to examine specific MCS cases
which OIG believes represent error conditions and explain to OIG
staff why Master Beneficiary Record (MBR) data fields contain
the data they do.

A short example may clarify this: Prior to implementation of the
Numident match in the claims-taking process, a parent filed a
claim for a DAC. In the course of data entry, the child's date
of onset (actually 1/1/74) was entered as 1/1/64 and the date of
birth was entered correctly as 1/1/74. The claim was denied
because of a lack of insured status on the number-holder's part.
There was limited editing on older systems and no editing or
other reconciliation would have taken place on the relationship
between the date of birth and date of onset; and, more
importantly, the discrepancy was irrelevant in light of the
disallowance. The MBR reflected the date of birth as 1/1/74 and


                               C-5

the initial date of onset of 1/1/64. Subsequently, the number-
holder gained insured status, filed a new claim and the DAC was
awarded benefits effective with his/her correct date of birth
and onset, 1/1/74. The MBR would show the initial claim's onset
date as 1/1/64 and the subsequent claim's onset date of 1/1/74.
When the second claim was filed, the date of birth was overlaid
as there is only one possible date of birth. The date of onset
in the initial claim is a matter of historical record; whether
the data is correct or not has no bearing on accuracy of
entitlement or benefits on the subsequent claim.

Item III.2.A. of Appendix A (page 10)

More detailed   Program Operations Manual System (POMS) procedures
for SSA field   office (FO) review of the Quarterly Force Pay
Listings have   been prepared and are scheduled for distribution
to the FOs by   the end of August 2000.

Item III.4.A. (page 13)

Actions are nearly complete to address this recommendation. In
December 1999, an Administrative Message (AM – 99343 – Report on
the Quality of the Enumeration Process for Calendar Year 1998)
was issued to SSA operational staff. The AM provides
information concerning the proper coding of the application form
for a Social Security Number (SSN – form SS-5). In addition, an
Interactive Video Training (IVT) session on policy and
procedures for the issuance of new SSNs in identity theft and
domestic abuse cases is scheduled for release by the end of
September 2000. This IVT session will also include segments on
the proper coding of form SS-5 and SSN evidentiary documentation
requirements.

Item V.B. of Appendix A (page 22)

A variety of actions have been taken and are underway to enable
us to better track and retrieve case folders. A disability
program circular was issued to operational staff in early FY
2000 outlining procedures for tracking and control of continuing
disability review (CDR) files, as well as procedures for
determining which cases do not require performance of a CDR. To
enhance disability case processing and facilitate performance of
quality reviews, in September 1999 an initiative began to
emphasize to operational staff the importance of improving the
quality of information collected at the front end of the
disability process, and to gather information on regional
quality improvement plans and activities. This effort has


                                 C-6

resulted in provision of additional communications to regional
personnel during early calendar year 2000 geared to increasing
the understanding of the importance of quality reviews and the
role of the actions of field staff in facilitating efficiencies
in the performance of them. We have also prepared POMS
instructions to assist operational staff in locating and
retrieving lost disability folders. These instructions
completely revise the existing lost folder process for CDRs, and
will be published in the POMS in early FY 2001.

We are continuing to develop our Paperless System, which will
use electronic client records to reduce reliance on paper
records in our program service centers, and thereby better serve
the public. We have been piloting the system in various SSA
offices, and will complete its implementation by the end of
December 2000.

We are also piloting an electronic claims folder, which is a
central repository of disability application data, to be used by
SSA field and hearings offices, and disability determination
service offices.

Item V.E. of Appendix A (page 26)

In April 2000 we purchased a fireproof safe and now store the
monthly back-up tapes for the revenue estimation models REVEARN
and MODEEM in this safe. Due to unavailability of off-site
space, and the costs associated with obtaining such space for
storing these tapes, the tapes are stored at SSA headquarters.
This concludes our actions on this finding/recommendation.

Item V.H. of Appendix A (page 28)

To resolve the reported accounting reconciliation issues, we
will establish a workgroup in the summer of 2000 to further
analyze the causes for continuing out of balance conditions.

An Initiative Information Document will be prepared by the end
of June 2000 to place this corrective action in our 5-year
systems planning process.

Item V.M. of Appendix A (page 29)

Several actions are underway at SSA to address this issue.

We are developing four debt collection tools. Two of these

tools have the highest expected debt collections, and two are

title XVI tools for which we already have a process for title II



                               C-7

in place. The two tools with the greatest potential for

collections are Cross Program Recovery (the collection of a

title XVI debt from any title II benefits payable to the

debtor), and Administrative Wage Garnishment, which is the

collection of a delinquent debt from the wages of the debtor.

Cross Program Recovery was authorized by different legislation

than the Debt Collection Improvement Act of 1996, and we

estimate that it will yield $175 million in collections over

5 years. Implementation will take place in January 2001.

We are now developing Administrative Wage Garnishment, and

expect to complete the required planning and analysis in early

summer 2000, with implementation scheduled for FY 2001.


Expansion to title XVI of our: 1) existing credit bureau

reporting; and 2) administrative offset programs (recently

authorized by the Foster Care Independence Act of 1999) is

currently undergoing planning and analysis that is scheduled for

completion in early summer of 2000. Implementation for title

XVI of both of these programs will occur in

January 2001.


When these four tools are successfully implemented, we will

begin work on developing other new debt collection tools.

We expect that Federal salary offset will be the next tool

considered for implementation, however this tool is still in the

development process at the Department of Treasury and the

timeframe needs to be worked out with Treasury. All other

collection tools (private collection agencies and interest

charging) will be developed in turn.


Item V.N. of Appendix A (page 31)


The OIG report lists several scheduled SSA actions to enhance
CDR tracking and reporting. Changes to that schedule are as
follows:

-   Replace ACID title II work functionality – target date is now
    September 2000, rather than after September 2000;
-   Expanding the CDR Control File – the appeals target date has
    been moved up to October 2000, and the 831/833 target date has
    been moved up to September 2000. The suspense/ defer delay
    capability and batch establishment/correction/ deletion
    capacity actions are still documented in our systems 5- year
    plan, and planning and analysis are ongoing. However, due to
    resource constraints and other priorities, these actions are
    now listed as unscheduled items.



                                C-8

Item V.P of Appendix A (page 32)

Our finance staff continue to develop Access queries and reports
that will enable them to create the various Quarterly Trust Fund
Letter tables without the additional manual keying step. Tax
Year 2000 earnings data will be downloaded from the mainframe
computers and reformatted by the end of March 2001 to a file
that can be appended to an Access database, thereby eliminating
the manual keying step.




                               C-9

                                                                       Appendix D

OIG Contacts and Staff Acknowledgments

OIG Contacts

    Frederick C. Nordhoff, Director, Financial Management and Performance
    Monitoring Audit Division (410) 966-6676

    Victoria Vetter, Deputy Director, Financial Management (410) 966-9081

Acknowledgments

In addition to those named above:

    Lance Chilcoat, Auditor-In-Charge

    Kristen Schnatterly, Auditor

    Anita McMillan, Senior Auditor

    Pat Kennedy, Senior Auditor/ CAATs Support

    Cheryl Robinson, Writer-Editor

For additional copies of this report, please contact Office of Inspector General’s Public
Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-15-99-52020.
                   Overview of the Office of the Inspector General


                                     Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                            Office of Executive Operations
The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance,
and public affairs. OEO supports the OIG components by providing information
resources management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this
Office coordinates and is responsible for the OIG’s strategic planning function and the
development and implementation of performance measures required by the
Government Performance and Results Act. The quality assurance division performs
internal reviews to ensure that OIG offices nationwide hold themselves to the same
rigorous standards that we expect from the Agency. This division also conducts
employee investigations within OIG. The public affairs team communicates OIG’s
planned and current activities and the results to the Commissioner and Congress, as
well as other entities.

                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
